Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 BENEFICIARY UTILIZATION OF
      ALBUTEROL AND
   LEVALBUTEROL UNDER
     MEDICARE PART B




                    Daniel R. Levinson
                     Inspector General

                      August 2009
                     OEI-03-07-00440
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                         S U M M A R Y


                  OBJECTIVE
                  To determine whether shifts in utilization patterns for albuterol and
                  levalbuterol from January 1, 2003, through December 31, 2007,
                  coincided with changes in Medicare Part B payment and coding policy.


                  BACKGROUND
                  Two inhalation drugs, albuterol and levalbuterol, are bronchodilators
                  used primarily to treat asthma and chronic obstructive pulmonary
                  disease. Some clinical studies suggest that levalbuterol has a greater
                  efficacy and fewer side effects than albuterol; however, other trials have
                  failed to detect any clinical advantage.

                  In 2003 and 2004, albuterol and levalbuterol were included in the same
                  payment code and had the same Medicare payment amount, based on
                  the median average wholesale price (AWP) of all versions of both drugs.
                  Effective January 1, 2005, the Centers for Medicare & Medicaid
                  Services (CMS) established separate payment codes and separate
                  payment amounts for the drugs. At the same time, under the Medicare
                  Prescription Drug, Improvement, and Modernization Act of 2003
                  (MMA), Medicare reimbursement for an inhalation drug was set at
                  106 percent of the drug’s average sales price (ASP). These changes
                  increased the payment amount for levalbuterol from $0.39 to $1.28 per
                  half milligram (mg), but decreased the payment amount for albuterol
                  from $0.39 to $0.07 per mg in the first quarter of 2005 (for treatment
                  purposes, 1 mg of albuterol is generally equivalent to 0.5 mg of
                  levalbuterol).

                  Effective July 1, 2007, CMS recombined albuterol and levalbuterol into
                  a single code, resulting in a Medicare payment amount of $0.53 per mg
                  of albuterol and per 0.5 mg of levalbuterol. As of April 1, 2008, CMS
                  again reestablished separate payment codes and payment amounts for
                  these two drugs ($0.28 per 0.5 mg of levalbuterol and $0.04 per mg of
                  albuterol).

                  We surveyed the suppliers and physicians for 312 beneficiaries who had
                  albuterol and/or levalbuterol claims between January 1, 2003, and
                  December 31, 2007 (response rate of 96 percent for suppliers and
                  60 percent for physicians). Based on supplier responses, we calculated
                  the percentage of beneficiaries who were changed to albuterol from
                  levalbuterol and vice versa. To estimate the impact of changing
                  between the two drugs on supplier reimbursement, we compared

OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   i
E X E C U T I V E                          S U            M M A R Y


                   Medicare’s quarterly payment amounts for albuterol and levalbuterol to
                   the estimated supplier acquisition cost (based on manufacturer-reported
                   ASP). Using physician responses, we also determined reasons why
                   changes occurred.


                   FINDINGS
                   Shifts in utilization patterns for albuterol and levalbuterol coincided
                   with changes in payment and coding. In 2003 and 2004, Medicare
                   reimbursement favored albuterol (from a supplier’s reimbursement
                   perspective) and nearly all beneficiaries (97 percent) received that drug.
                   Specifically, in the fourth quarter of 2004, Medicare paid suppliers an
                   average of almost five times more than their cost for albuterol, but
                   significantly less than their cost for levalbuterol.

                   As a result of payment and coding changes that took effect on
                   January 1, 2005, reimbursement became much more favorable for
                   levalbuterol. We estimate that during the initial quarter after the
                   coding and reimbursement change, suppliers were being reimbursed
                   roughly at cost for albuterol, but 68 percent above cost for levalbuterol.
                   Twenty-five percent of beneficiaries who were on albuterol in 2004 were
                   changed to levalbuterol between January 1, 2005, and June 30, 2007.

                   As of July 1, 2007, CMS calculated one payment amount for albuterol
                   and levalbuterol, which was based on the volume-weighted ASP for both
                   drugs. As a result, suppliers were being reimbursed at almost 10 times
                   their cost for albuterol, but roughly half their cost for levalbuterol.
                   After this payment and coding change, two-thirds of the beneficiaries in
                   our sample who received levalbuterol as of June 2007 were changed to
                   albuterol.
                   Despite the move to ASP, average per-beneficiary spending on
                   albuterol and levalbuterol actually increased above pre-MMA levels.
                   In the first half of 2003, because almost all of the beneficiaries
                   (97 percent) were receiving albuterol rather than levalbuterol, the
                   former accounted for the vast majority of spending during this time.
                   The change to an ASP-based reimbursement system in January 2005
                   lowered the Medicare payment amount for albuterol by 83 percent.
                   However, because utilization began slowly shifting to levalbuterol,
                   overall per-beneficiary spending did not decline proportionally.

                   As the number of beneficiaries shifting to levalbuterol increased, so did
                   the average spending per beneficiary. Between January 1 and
                   June 30, 2007, when more than a quarter of beneficiaries were receiving

 OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   ii
E X E C U T I V E                          S U            M M A R Y


                   levalbuterol, Medicare paid an average of $600 per beneficiary for both
                   albuterol and levalbuterol, or $94 more per beneficiary than in the first
                   half of 2003.
                   Physicians in our sample typically cited clinical reasons for
                   changing beneficiaries from albuterol to levalbuterol, but financial
                   reasons for changing in the opposite direction. For 64 percent of
                   beneficiaries in our sample who were changed from albuterol to
                   levalbuterol between January 1, 2005, and June 30, 2007 (i.e., when
                   levalbuterol became the more favorable drug from a reimbursement
                   perspective), physicians reported that the changes occurred because of
                   clinical reasons. During this same period, physicians for just 8 percent of
                   beneficiaries in our sample cited financial reasons for the change to
                   levalbuterol.

                   However, for 58 percent of beneficiaries in our sample who changed from
                   levalbuterol to albuterol after July 1, 2007 (i.e., when albuterol became
                   the more favorable drug from a reimbursement perspective), physicians
                   reported that the prescriptions were changed because of financial
                   concerns.


                   CONCLUSION
                   Between January 2005 and June 2007, when Medicare reimbursement
                   shifted to favor the more expensive levalbuterol, one-quarter of the
                   beneficiaries were changed from albuterol to the costlier product.
                   Although a number of physicians cited clinical reasons for changing
                   prescriptions, reimbursement considerations may have also played a
                   role—especially given that some changes appear to have been completed
                   by the suppliers without the physicians’ knowledge and that the
                   majority of the beneficiaries remained on albuterol despite the large
                   differences in payment levels.

                   As a result of the July 1, 2007, payment and coding changes, most
                   suppliers may have been losing money by providing levalbuterol, and at
                   that time, many beneficiaries were changed back to albuterol, even
                   though in some cases (according to physicians) albuterol had initially
                   caused side effects. At this same time, however, the payment situation
                   not only created a disincentive for levalbuterol, but also caused
                   albuterol to be reimbursed at more than 10 times its cost.

                   As of April 1, 2008, CMS implemented a provision of the Medicare,
                   Medicaid, and SCHIP Extension Act of 2007 that once again lowered
                   albuterol reimbursement so that payment more accurately reflected

 OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   iii
E X E C U T I V E                          S U            M M A R Y


                   acquisition cost. However, the same provision prevented CMS from
                   addressing any underpayment for levalbuterol.

                   When Congress and CMS make coding and reimbursement decisions, it
                   is important they take into consideration that the new policies may
                   affect what drug a beneficiary is prescribed. In some cases, this may
                   limit access to a potentially more effective product; in others, utilization
                   could be driven toward a more expensive product that offers no clinical
                   advantage. In future studies, the Office of Inspector General will
                   continue to monitor the utilization of and payment for these and other
                   drugs, with the goal of identifying inappropriate Medicare payments.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS stated that the agency is
                   aware of the impact that changes in payment methodologies can have
                   on access to prescription drugs. However, CMS noted that in the case of
                   albuterol and levalbuterol, changes to coding and pricing were not
                   discretionary but instead were made to comply with legislative
                   mandates. CMS stated that the agency has monitored and will continue
                   to monitor spending and utilization for both drugs to help ensure price
                   stability and access while fulfilling legal mandates.

                   In its technical comments, CMS noted two areas for further OIG
                   investigation: (1) cases in which physicians were reportedly unaware of
                   the medication changes; and (2) the clinical rationales for changing
                   medications, including whether reports of clinical complications truly
                   reflect actual complications. OIG will review cases in which
                   prescription changes occurred without the physicians’ knowledge to
                   determine whether further investigation is warranted; however, OIG
                   does not believe further investigation on physician rationales for
                   prescription changes is necessary. We did not make any changes to the
                   report based on CMS’s comments.




 OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    Shifts in utilization patterns for albuterol and levalbuterol
                    coincided with changes in payment and coding . . . . . . . . . . . . . . . 13
                    Despite the move to ASP, average per-beneficiary spending on
                    albuterol and levalbuterol actually increased above pre-MMA
                    levels . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    Physicians in our sample typically cited clinical reasons for
                    changing beneficiaries from albuterol to levalbuterol, but
                    financial reasons for changing in the opposite direction . . . . . . . . 18


         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    Agency Comments and Office of Inspector General
                    Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                    A: Confidence Intervals for Percentages . . . . . . . . . . . . . . . . . . . . 24

                    B: Average Monthly Difference Between
                    Reimbursement and Cost for Albuterol and Levalbuterol. . . . . . . 25

                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine whether shifts in utilization patterns for albuterol and
                  levalbuterol from January 1, 2003, through December 31, 2007,
                  coincided with changes in Medicare Part B payment and coding policy.


                  BACKGROUND
                  Medicare Part B Coverage of Inhalation Drugs
                  Although Medicare Part D covers most outpatient prescription drugs,
                  inhalation drugs are covered under Part B when administered in the
                  home through a nebulizer. 1 A nebulizer is a type of durable medical
                  equipment (DME) item that is provided to Medicare beneficiaries by
                  DME suppliers. DME suppliers also provide inhalation drugs, which
                  are covered under Part B as a supply necessary for the nebulizer to
                  perform its function. Physicians typically prescribe inhalation drugs to
                  treat and prevent symptoms associated with lung diseases, such as
                  asthma and chronic obstructive pulmonary disorder. Long-term use is
                  often required because inhalation drugs treat incurable and chronic
                  diseases.

                  Two inhalation drugs, albuterol and levalbuterol, are bronchodilators
                  used primarily to treat asthma and chronic obstructive pulmonary
                  disease. The drugs essentially have the same chemical composition,
                  except that levalbuterol contains only one of the two albuterol isomers.
                  Some clinical studies suggest that because it lacks this isomer,
                  levalbuterol has greater efficacy and produces fewer side effects than
                  albuterol. However, other trials have failed to detect any clinical
                  advantage of levalbuterol over albuterol. 2 Levalbuterol (brand name
                  Xopenex) is a single-source drug manufactured by Sepracor and has no




                     1 Medicare Part D covers inhalation drugs that (1) are not administered through a

                  nebulizer, such as those delivered through a metered-dose inhaler; or (2) are administered
                  through a nebulizer, but are not used in a patient’s home (e.g., used in a hospital or skilled
                  nursing facility by a beneficiary who does not have Part A coverage, who has exhausted his
                  or her Part A coverage, or whose stay is noncovered). Hereinafter, all references to
                  inhalation drugs in this report refer to inhalation drugs covered under Part B,
                  i.e., administered in the home through a nebulizer.
                      2 National Heart, Lung, and Blood Institute, National Asthma Education and Prevention
                  Program, “Expert Panel Report 3: Guidelines for the Diagnosis and Management of
                  Asthma.” Published on August 28, 2007. Available online at
                  http://www.nhlbi.nih.gov/guidelines/asthma/asthgdln.pdf. Accessed on January 4, 2008.



OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   1
I N T R O D        U C T               I O N


                    available generic versions. Albuterol is a multiple-source drug with
                    generic versions available from numerous manufacturers.
                    The Centers for Medicare & Medicaid Services (CMS) contracts with
                    four geographically defined DME Medicare Administrative Contractors
                    (MAC) to process and pay for DME claims, including those for
                    inhalation drugs. 3 For Medicare to pay for an inhalation drug, the
                    DME supplier must have a signed prescription from the treating
                    physician and the physician’s identification number must be listed on
                    the submitted claim form. Generally, Medicare will pay 80 percent of
                    the authorized reimbursement amount to the DME supplier providing
                    the inhalation drug; the beneficiary is responsible for the remaining
                    20 percent in the form of coinsurance.

                    When a supplier submits a claim for reimbursement, the drug dispensed
                    is identified on the claim using codes established by CMS as part of the
                    Healthcare Common Procedure Coding System (HCPCS). The HCPCS
                    codes provide a standardized system for describing the specific items
                    and services provided in the delivery of health care. In the case of
                    prescription drugs, each HCPCS code defines the drug name and dosage
                    size but does not specify manufacturer or package size information. 4
                    Medicare Part B Payment Methodology for Inhalation Drugs
                    Medicare’s payment methodology for inhalation drugs administered
                    through a nebulizer has undergone significant changes over the past
                    5 years, with the intent of making Medicare payments more reflective
                    of acquisition costs. Pursuant to section 1842(o) of the Social Security
                    Act (the Act), as amended by section 4556 of the Balanced Budget Act
                    of 1997, P.L. No. 105-33, payment for inhalation drugs furnished on or
                    after January 1, 1998, was set at 95 percent of the drug’s average
                    wholesale price (AWP). However, reports by the Government



                       3 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,

                    P.L. No. 108-173 (MMA), included provisions that required CMS to implement competitive
                    procedures to replace DME regional carriers with DME MACs. In 2006, CMS competitively
                    selected four DME MACs and began to transition claims administration activities from
                    DME regional carriers to DME MACs. As of June 1, 2007, the four DME MACs awarded
                    contracts were the National Heritage Insurance Company for Jurisdiction A; AdminaStar
                    Federal, Inc., for Jurisdiction B; CIGNA Government Service, LLC, for Jurisdiction C; and
                    Noridian Administrative Services for Jurisdiction D.
                        4 Typically, HCPCS codes correspond to a single drug distributed by one or more
                    manufacturers. However, in some cases, HCPCS codes may represent several different
                    drugs.



 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   2
I N T R O D        U C T               I O N


                    Accountability Office (GAO) 5 and the Office of Inspector General
                    (OIG) consistently demonstrated that suppliers could obtain drugs
                    well below the Medicare payment amount under the AWP method.
                    OIG issued several reports that focused specifically on the
                    high-volume inhalation drug albuterol. 6 Based in part on this work,
                    sections 303(b)(2) and 305(a) of the MMA, P.L. No. 108-173, lowered
                    the Medicare payment to 80 percent of AWP for some of the most
                    commonly dispensed inhalation drugs, such as albuterol, in 2004. 7
                    Other inhalation drugs were reimbursed at 85 percent of AWP. 8
                    For 2005 and subsequent years, sections 303(c)(1) and 305(a) of the
                    MMA changed the basis of payment for inhalation drugs (and most
                    other Part B prescription drugs as well) to 106 percent of the
                    volume-weighted average sales price (ASP). 9 Section 1847A(c) of the
                    Act, as added by the MMA, generally defines ASP as a manufacturer’s
                    sales of a drug to all purchasers in the United States in a calendar
                    quarter divided by the total number of units of the drug sold by the
                    manufacturer in that same quarter. CMS calculates a volume-weighted
                    ASP for each covered HCPCS code by using an equation that involves
                    manufacturer-reported ASP data, the volume of sales reported by the
                    manufacturers, and the number of billing units in the national drug
                    code determined by CMS.
                    Dispensing fees. In addition to paying the cost of the drug itself,
                    Medicare also pays a separate dispensing fee for inhalation drugs under
                    the DME benefit. Dispensing fees are intended to cover any reasonable
                    pharmacy costs associated with distributing the drug, but do not include
                    administrative fees. Prior to 2005, Medicare paid a monthly
                    $5 fee to the supplier each time an inhalation drug was dispensed. 10 In
                    2005, Medicare raised the dispensing fee to $57 for a 30-day supply or
                    $80 for a 90-day supply of inhalation drugs. 11 According to CMS,

                        5 GAO, “Payments for Covered Outpatient Drugs Exceed Providers’ Cost,” GAO-01-1118
                    (September 21, 2001).
                        6 For example, see “Excessive Medicare Reimbursement for Albuterol”
                    (OEI-03-01-00410), March 2002.
                        7 Sections 1842(o)(1)(G)(i) and 1842(o)(4)(B), (C), and (D) of the Act.
                        8 Section 1842(o)(4)(A) of the Act.
                        9 Sections 1842(o)(1)(G)(ii) and 1847A of the Act.
                        10 CMS Press Release, “Appropriate Payments, High-Quality Care for Beneficiaries
                    Using Inhalation Drugs.” November 2, 2005.
                       11 69 Fed. Reg. 66236, 66425 (Nov. 15, 2004) (codifying earlier version of 42 CFR
                    § 414.1001(c) and (d)).



 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   3
I N T R O D        U C T               I O N


                    because of the “overall reduction in payment for inhalation drugs,” the
                    dispensing fee was increased because the agency was “concerned about
                    beneficiary access to these drugs.” 12 Effective January 1, 2006,
                    Medicare began paying $57 for the first time a beneficiary was
                    dispensed a 30-day supply of an inhalation drug and $33 for each
                    subsequent month, or $66 for a 90-day supply. 13 As of December 1,
                    2008, dispensing fees for inhalation drugs were still paid at this same
                    rate.
                    Medicare Payment and Coding for Albuterol and Levalbuterol
                    January 1, 2003–December 31, 2004. Medicare payment and coding for
                    albuterol and levalbuterol have undergone several changes since 2003
                    (see Table 1 on page 6 for details). 14 In 2003 and 2004, albuterol and
                    levalbuterol were both paid for under the same HCPCS code
                    (J7619). 15 At that time, the payment amount for this code was based
                    on the median AWP of all versions of both drugs. In 2003, this
                    resulted in a Medicare payment amount of $0.47 per milligram (mg)
                    of albuterol or per 0.5 mg of levalbuterol (despite levalbuterol’s
                    much-higher AWP). 16 In 2004, Medicare paid $0.39 for these dosages
                    of both drugs.
                    January 1, 2005–June 30, 2007. Effective January 1, 2005, CMS
                    established separate HCPCS codes and separate payment amounts
                    for albuterol (J7613) and levalbuterol (J7614). 17 At the same time,
                    CMS also implemented the ASP methodology as mandated by the
                    MMA. As a result, in the first quarter of 2005, the Medicare payment
                    amount for albuterol decreased to $0.07 per mg, while the Medicare
                    payment amount for levalbuterol increased to $1.28 per 0.5 mg.
                    Between January 1, 2005, and June 30, 2007, Medicare payment
                    amounts varied slightly from quarter to quarter. However, Medicare


                        12 69 Fed. Reg. 47488, 47549 (Aug. 5, 2004).
                        13 42 CFR § 414.1001(c) and (d).
                        14 For the purpose of this review, albuterol and levalbuterol refer to unit-dose forms of
                    these drugs; this review does not include the concentrated forms.
                        15 68 Fed. Reg. 50428, 50450 (Aug. 20, 2003).
                        16 For treatment purposes, 1 mg of albuterol is generally equivalent to 0.5 mg of
                    levalbuterol.
                      17CMS, “January 2005 Payment Allowance Limits for Medicare Part B Drugs.”
                    Downloaded from a link entitled “Jan 2005 ASP Pricing File and ASP NOC Pricing File.”
                    Available online at
                    http://www.cms.hhs.gov/McrPartBDrugAvgSalesPrice/02a_2005aspfiles.asp#TopOfPage.
                    Accessed on March 30, 2009.



 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   4
I N T R O D        U C T               I O N


                    continued to pay for albuterol and levalbuterol separately during this
                    time.
                    July 1, 2007–March 31, 2008. CMS reestablished a single HCPCS code
                    (Q4094) for albuterol and levalbuterol effective July 1, 2007, as
                    described in a May 2007 coding announcement. 18 Thus, as of
                    July 1, 2007, the Medicare payment amount for the code was based on
                    the volume-weighted ASP for both albuterol and levalbuterol.
                    According to the coding announcement, this change was made to
                    ensure that payments reflected the “grandfathering” provision of
                    section 1847A of the Act, which states:
                                 With respect to single source drugs or biologicals that are
                                 within the same billing and payment code as of October 1,
                                 2003, the Secretary shall treat such single source drugs or
                                 biologicals as if the single source drugs or biologicals were
                                 multiple source drugs. 19
                    This coding change had a substantial impact on the Medicare
                    payment amounts for both drugs. The Medicare payment amount for
                    albuterol in the third quarter of 2007 was about 6.5 times higher than
                    the payment amount in the second quarter ($0.08 per mg compared to
                    $0.53 per mg). However, the payment amount for levalbuterol had
                    decreased by almost two-thirds (from $1.54 per 0.5 mg to $0.53 per
                    0.5 mg).
                    April 1, 2008–Present. Section 112(b)(2) of the Medicare, Medicaid, and
                    SCHIP Extension Act of 2007 (Extension Act) established a special
                    rule that addressed the application of the “grandfathering” provision
                    of the Act. 20 This provision of the Extension Act provides flexibility in
                    payment determinations designed to yield the lowest payment
                    amount for certain drugs, including albuterol and levalbuterol. More
                    specifically, effective April 1, 2008, this provision allows payment
                    amounts for single-source drugs that are treated as multiple-source
                    drugs under the grandfathering clause to be based on the lower of
                    (1) the payment amount determined when the grandfathering clause


                        18 CMS Coding Announcement. Available online at

                    http://www.cms.hhs.gov/MedHCPCSGenInfo/Downloads/051807_coding_annoucement.pdf.
                    Accessed on August 25, 2008.
                      19 Section 1847A(c)(6)(C)(ii) of the Act. CMS’s change affected Medicare payment for
                    several other drugs as well. We did not examine the potential impact on Medicare
                    expenditures for any drugs other than albuterol and levalbuterol.
                        20 Section 1847A(c)(6)(C)(ii) of the Act.




 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   5
            I N T R O D               U C T                 I O N


                                         is applied or (2) the payment amount when the grandfathering clause
                                         is not applied. 21
                                         Effective April 1, 2008, CMS implemented these provisions of the
                                         Extension Act by establishing separate HCPCS codes and payment
                                         amounts for albuterol and levalbuterol. By doing so, CMS set the
                                         payment amount for albuterol in the second quarter of 2008 at $0.04
                                         per mg and for levalbuterol at $0.28 per 0.5 mg. This is a 92-percent
                                         decrease in the payment amount for albuterol and a 47-percent
                                         decrease for levalbuterol. A summary of the different payment and
                                         coding methodologies and their impact on Medicare payment amounts
                                         is presented in Table 1.
Table 1: Medicare Payment Amounts for Albuterol and Levalbuterol
                                             95% of                    80% of                                                     106% of ASP
                                               AWP                       AWP

                                                 2003                      2004                  2005                 2006                    2007                  2007          2008
                                                                                                st                   st                     nd                    rd             nd
                                                                                              (1 Qtr)              (1 Qtr)               (2    Qtr)             (3 Qtr)     (2     Qtr)

  Combined Payment Codes

 Albuterol (unit dose), 1 mg                    $0.47                     $0.39                       -                       -                      -              $0.53             -
 Levalbuterol (unit dose), 0.5 mg
 Separate Payment Codes

 Albuterol (unit dose), 1 mg                                                         -          $0.07                 $0.06                   $0.08                     -        $0.04

 Levalbuterol (unit dose), 0.5 mg                                                    -          $1.28                 $1.34                   $1.54                     -        $0.28
Source: Quarterly Medicare payment amounts from CMS’s Web site.


                                         Medicare Spending for Albuterol and Levalbuterol
                                         In 2004, albuterol and levalbuterol accounted for 31 percent
                                         ($404 million) of the $1.3 billion Medicare spent on inhalation drugs.
                                         Following the MMA-mandated change to an ASP-based reimbursement
                                         methodology, spending on albuterol and levalbuterol dropped to
                                         $234 million in 2005 (30 percent of the $784 million spent on all
                                         inhalation drugs). By 2007, total Medicare spending for albuterol and
                                         levalbuterol had increased to $385 million, an amount approaching the
                                         pre-ASP level. These drugs accounted for nearly 40 percent of the
                                         $1 billion Medicare spent on inhalation drugs. 22 See Table 2 for details




                                             21 Section 1847A(b)(7)(A) of the Act.
                                             22 Medicare Part B Extract and Summary System (BESS) (98 percent of claims reported).
                                         Accessed on June 17, 2008.



               OEI-03-07-00440           B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B            6
            I N T R O D                  U C T                 I O N


                                            on total Medicare payments for albuterol and levalbuterol from 2003
                                            through 2007.

 Table 2: Total Medicare Spending on Albuterol and Levalbuterol
                                                                              95% of AWP             80% of AWP                                         106% of ASP

                                                                                             2003                  2004                     2005                     2006            2007*

  Combined Payment Codes

  Albuterol (unit dose), 1 mg; levalbuterol (unit dose),                        $484 million             $404 million                              -                       -   $162 million
  0.5 mg

  Separate Payment Codes

  Albuterol (unit dose), 1 mg                                                                    -                       -          $57 million             $39 million         $17 million

  Levalbuterol (unit dose), 0.5 mg                                                               -                       -        $177 million            $334 million         $206 million
    Total Medicare spending on albuterol and                                    $484 million             $404 million             $234 million            $373 million         $385 million
    levalbuterol
*Albuterol and levalbuterol had separate payment amounts in the first half of 2007 and combined payment amounts for the second half.
Source: BESS 2003–2006 data accessed on June 11, 2007; BESS 2007 data accessed on July 15, 2008.




                                            METHODOLOGY
                                            Sample Selection
                                            Our sample was limited to beneficiaries who had received albuterol or
                                            levalbuterol continuously from the first half of 2003 through the fourth
                                            quarter of 2007, provided by the same supplier and prescribed by the
                                            same physician. It was also limited to suppliers and physicians that
                                            were not under current investigation. Therefore, our sample may be
                                            projected only to beneficiaries who meet these criteria.

                                            We obtained 100 percent of Medicare DME claims for albuterol and
                                            levalbuterol from CMS’s National Claims History file for 2003 through
                                            2007. Using these data, we first identified the beneficiaries with claims
                                            for albuterol/levalbuterol (HCPCS code Q4094) in the fourth quarter of
                                            2007 (319,849 beneficiaries). Among this group, we identified all of the
                                            beneficiaries who had at least one albuterol or levalbuterol claim in both
                                            the first and second halves of each year from 2003 through 2007
                                            (36,585 beneficiaries).

                                            We further limited our sample to include only the beneficiaries who,
                                            according to the claims data, had not changed their prescribing
                                            physicians and suppliers during this time. Using the group of
                                            beneficiaries with albuterol and levalbuterol claims in each half of 2003
                                            through 2007, we matched the physician’s unique physician

                OEI-03-07-00440             B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B               7
I N T R O D        U C T               I O N


                    identification number (UPIN) listed on every claim in the first half of
                    2007 to the UPIN listed on every albuterol and levalbuterol claim since
                    January 2003. We then matched the supplier’s provider identification
                    number to each provider identification number listed on each claim
                    during this time. We selected only those beneficiaries whose claims
                    always listed the same UPIN and provider identification number
                    between 2003 and 2007. In total, 7,426 beneficiaries met these criteria
                    (2 percent of the 319,849 beneficiaries with albuterol/levalbuterol claims
                    in the fourth quarter of 2007).

                    We randomly selected a sample of 400 beneficiaries from the group of
                    7,426 beneficiaries. We removed from our sample beneficiaries who
                    received drugs from the six suppliers that were under investigation. 23
                    Our final sample of 312 beneficiaries were prescribed inhalation drugs
                    by 304 physicians and provided inhalation drugs by 154 suppliers.
                    Data Collection
                    Because the HCPCS codes used prior to 2005 and in the second half of
                    2007 did not enable us to differentiate between albuterol and
                    levalbuterol from the claims data alone, we contacted the supplier and
                    physician for each beneficiary. We used the provider and physician
                    identification numbers listed on the claim and cross-referenced these
                    to address databases (i.e., National Supplier Clearinghouse and UPIN
                    Registry) to contact each beneficiary’s supplier and prescribing
                    physician.
                    Supplier requests. For each beneficiary, we requested that the supplier
                    complete a dispensing table to show the drug dispensed, the dates
                    dispensed, the drug’s strength and volume, and the number of vials
                    provided. We also requested copies of the beneficiary’s original
                    physician-signed prescriptions for albuterol and/or levalbuterol. If a
                    beneficiary changed between the two drugs from January 1, 2005,
                    through December 31, 2007, we asked the supplier to describe what
                    prompted each change.

                    At the end of June 2008, we sent requests to the 154 suppliers
                    associated with the 312 beneficiaries. As of September 2008, we had




                        23 These six suppliers provided inhalation drugs to 88 of the 400 beneficiaries.




 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   8
I N T R O D        U C T               I O N


                    received responses from 143 suppliers for 300 beneficiaries. 24 25 Two
                    beneficiaries were not included in any of the analyses because the
                    supplier reported that they were on compounded versions of the drugs
                    the entire time, yielding a total possible sample size of 298 (response
                    rate of 96 percent). 26
                    Physician requests. For each beneficiary in our sample, we asked his or
                    her physician to provide the beneficiary’s albuterol and levalbuterol
                    prescription history from January 1, 2003, through December 31,
                    2007. By doing so, we were able to determine whether and how often
                    the beneficiary changed between albuterol and levalbuterol. We
                    asked each physician to report the reason for (1) changes from
                    albuterol to levalbuterol on or after January 1, 2005; and (2) changes
                    from levalbuterol to albuterol on or after July 1, 2007. For these
                    changes, we projected the percentages to our population.

                    We sent requests to the 304 physicians who prescribed albuterol or
                    levalbuterol to the 312 beneficiaries at the end of June 2008. As of
                    September 2008, we had received responses from 181 physicians for
                    186 beneficiaries that could be included in the analysis of physician
                    responses (response rate of 60 percent). In addition, we received
                    physician responses for 46 beneficiaries who could not be included in
                    the analysis because (1) the physician reported prescribing both drugs
                    to the beneficiary at the same time, (2) the physician stated that
                    neither of the drugs was prescribed for the beneficiary during the
                    requested timeframe, (3) the physician reported that he or she had
                    never seen the beneficiary (at least not in the last 5 years), or (4) the
                    physician did not have records identifying the drug and/or dates
                    prescribed. 27



                        24 Six suppliers returned their beneficiary surveys after the deadline and after the
                    analyses were completed. Therefore, these were not included in the analyses. One supplier
                    for one beneficiary reported that it never provided either drug to the beneficiary. There
                    were an additional four suppliers (accounting for five beneficiaries) that we referred for
                    investigation because their surveys were returned to us marked undeliverable.
                        25 We sent up to two follow-up surveys and made several attempts to contact
                    nonresponding suppliers.
                        26 Pharmacy compounding is a practice in which pharmacists combine, mix, or alter
                    ingredients, such as albuterol and ipratropium bromide, to create unique medications that
                    meet specific needs of individual patients.
                        27 For cases in which physicians responded that they prescribed neither drug or did not
                    treat the beneficiaries, we will provide our Office of Investigations (OI) with information
                    about the supplier that billed for the drug.



 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   9
I N T R O D        U C T               I O N


                    Among the nonresponding physicians, 72 physicians associated with
                    73 beneficiaries (23 percent) did not return completed surveys and
                    had no contact with our office. 28 An additional four physicians
                    declined to respond to our request, two addresses could not be found,
                    and one doctor had died and the office closed over a year ago.
                    Data Analysis
                    Because the suppliers dispensed the drugs to the beneficiaries, we
                    used their responses to determine the percentage of beneficiaries with
                    drug utilization changes. We calculated the percentage of
                    beneficiaries who were (1) on albuterol in 2004 and then changed to
                    levalbuterol between January 1, 2005, and July 1, 2007 (following the
                    change to ASP); and (2) on levalbuterol as of June 2007 (before the
                    payment coding change) and then changed to albuterol in the second
                    half of 2007. 29 30 We also calculated the percentage of beneficiaries
                    who were changed to the less profitable drug during each of these
                    periods.

                    Once we determined the number of beneficiaries who were changed
                    from one drug to the other, we compared the prescription reports from
                    those beneficiaries’ suppliers with those of the corresponding
                    physicians. Using the physician responses, we determined what
                    prompted the physicians to change the beneficiaries from albuterol to
                    levalbuterol between January 1, 2005, and June 30, 2007, or from
                    levalbuterol to albuterol in the second half of 2007. Because of a low
                    physician response rate and a small sample size, we did not make
                    projections based on physician responses.
                    Additionally, for the beneficiaries who were changed to a more
                    profitable drug (i.e., changed to levalbuterol between
                    January 1, 2005, and June 30, 2007; or changed to albuterol after
                    June 30, 2007), we compared physician and supplier responses. We
                    received both physician and supplier responses for 50 of the

                       28 We sent up to two follow-up surveys to physicians who had not responded to the

                    original request by the due date.
                      29 We analyzed only changes between albuterol and levalbuterol; supplier and physician
                    responses indicating changes between compounded drugs (e.g., albuterol/ipratropium
                    bromide) were excluded from each analysis.
                       30 We projected the results to the population for the first change (i.e., from albuterol to
                    levalbuterol following the change to ASP). However, because we selected a subset of
                    beneficiaries for the second change (i.e., beneficiaries on levalbuterol as of June 2007 who
                    were changed to albuterol in the second half of 2007), our sample size for this analysis was
                    reduced to 63 beneficiaries. Therefore, we were unable to reliably project this percentage.



 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   10
I N T R O D        U C T               I O N


                    78 beneficiaries with this type of change. We calculated the number
                    of beneficiaries whose suppliers reported changes that the physicians
                    did not report. 31
                    To estimate the impact of changing between the two drugs on supplier
                    reimbursement, we compared Medicare’s quarterly payments for
                    albuterol and levalbuterol to the estimated supplier acquisition costs.
                    We based our estimate of acquisition costs in each quarter on the
                    manufacturer-reported ASPs reflecting sales during that same
                    quarter. We multiplied the difference between supplier acquisition
                    cost and average reimbursement by 90 vials to approximate the net
                    difference per month. 32 33 Using claims data in CMS’s National
                    Claims History file and information from supplier responses, we also
                    determined the average spending per beneficiary in our sample on
                    albuterol and levalbuterol in the first half of each year from 2003 to
                    2007. 34
                    Limitations
                    We limited our sample to include beneficiaries with albuterol or
                    levalbuterol claims during the first and second half of each year
                    between January 1, 2003, and December 31, 2007, who had the same
                    physician and the same supplier for all 5 years. Because beneficiaries
                    may change their doctors or suppliers within a 5-year period, our
                    sample may not be representative of all beneficiaries who were
                    prescribed inhalation drugs.

                    By selecting a sample of beneficiaries who each had only one supplier
                    and one physician, we may also have eliminated potentially fraudulent
                    DME suppliers. As demonstrated in a prior OIG report, beneficiaries in

                      31 As previously noted, this analysis includes physician responses. We did not project

                    these figures because of a low sample size and a low physician response rate.
                      32 Prescribing information on the Food and Drug Administration’s Web site states that
                    patients may benefit from using 2.5 mg of albuterol or 1.25 mg of levalbuterol three times a
                    day, which would be approximately 90 vials per month.
                        33 We used the most common dosages per vial reported by suppliers for each drug:
                    2.5 mg/3 milliliter (mL) of albuterol and 1.25 mg/3 mL of levalbuterol. Levalbuterol is
                    available in three doses: 0.31 mg, 0.63 mg, and 1.25 mg. The manufacturer prices each vial
                    the same, regardless of the dose it contains. However, CMS bases the reimbursement on
                    the dose in each vial (i.e., per mg). This creates a potential disconnection between pricing
                    and reimbursement and may produce an incentive for manufacturers to purchase the
                    highest dosage of 1.25 mg/3 mL.
                        34 Because we could not differentiate between albuterol and levalbuterol claims in 2003
                    and 2004, to calculate the average albuterol and levalbuterol spending, we used the
                    information from the supplier responses to identify the drug listed on the claim.



 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   11
I N T R O D        U C T               I O N


                    South Florida, a high-risk area for fraudulent and excessive DME
                    billings, have a much higher rate of multiple suppliers per beneficiary
                    than anywhere else. Because we removed the beneficiaries with
                    multiple suppliers, our percentage of beneficiaries who were changed to
                    a more profitable drug and average spending calculations may be lower
                    than if the beneficiaries associated with these suppliers were included.

                    Our analysis of supplier reimbursement includes only Medicare
                    payments for the ingredient cost portion. We did not analyze the impact
                    of dispensing fees (which were the same for both drugs) in our review.
                    In addition, we did not address clinical issues associated with either
                    drug.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-07-00440    B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   12
   F   I N D I N G         S
 Δ         F I N D I N G S

   Shifts in utilization patterns for albuterol and            Medicare payment and coding for
levalbuterol coincided with changes in payment                 albuterol and levalbuterol have
                                        and coding             undergone several changes since
                                                               2003. Between 2003 and 2007,
                         utilization patterns for both drugs among beneficiaries fluctuated
                         noticeably—almost always shifting toward the drug with the more
                         profitable cost and reimbursement difference (i.e., more favorable for
                         the supplier from a reimbursement perspective). Figure 1 on page 16
                         illustrates the changes in utilization among beneficiaries from 2003 to
                         2007.
                         In 2003 and 2004, Medicare reimbursement favored albuterol and nearly all
                         beneficiaries received that drug
                         Albuterol and levalbuterol were both included in the same HCPCS code
                         and paid by Medicare at the same AWP-based rate in 2003 and 2004.
                         However, the actual acquisition cost of albuterol was much lower than
                         the actual acquisition cost of levalbuterol.35 We estimate that in the
                         fourth quarter of 2004, suppliers could purchase a typical monthly
                         supply (90 vials) of albuterol for around $19, while a similar supply of
                         levalbuterol cost $164. Medicare reimbursed suppliers approximately
                         $88 for either drug in the fourth quarter of 2004, meaning that
                         suppliers were reimbursed almost five times their cost for albuterol, but
                         substantially less than their cost for levalbuterol (almost 50 percent
                         below their average acquisition cost for a month’s supply).

                         Ninety-seven percent of beneficiaries received albuterol in the fourth
                         quarter of 2004, but only 3 percent received levalbuterol (based on
                         supplier responses). These figures were relatively constant during the
                         entire period from January 1, 2003, through December 31, 2004. Refer
                         to Appendix A for the percentages and confidence intervals cited in this
                         report.
                         Between January 2005 and June 2007, Medicare reimbursement favored
                         levalbuterol; during that period, one-quarter of beneficiaries who were using
                         albuterol were changed to levalbuterol
                         Effective January 1, 2005, CMS established separate HCPCS codes
                         and separate payment amounts for albuterol and levalbuterol. At the
                         same time, CMS implemented the ASP methodology as mandated by



                           35 Average acquisition cost was based on manufacturer-reported ASP data from the
                         quarter under review.



       OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   13
       F   I N D I N G                  S


                                      the MMA. As a result, instead of favoring albuterol, reimbursement
                                      became much more favorable for levalbuterol.

                                      During the initial quarter after the 2005 coding and reimbursement
                                      change, Medicare’s payment for the typical monthly supply of albuterol
                                      fell from $88 to $15, while payment for levalbuterol jumped from $88 to
                                      $288. According to ASP data, suppliers paid, on average, $14 for a
                                      monthly supply of albuterol and $171 for levalbuterol. In other words,
                                      suppliers were now being reimbursed roughly at cost for albuterol, but
                                      68 percent above cost for levalbuterol. Medicare reimbursement
                                      continued to greatly favor levalbuterol between January 2005 and July
                                      2007, even though actual differences between Medicare payment and
                                      acquisition costs for the two drugs shifted slightly (see Table 3).

Table 3: Average Reimbursement and Cost Difference for a Monthly Supply of Albuterol and
Levalbuterol (Fourth Quarter 2004 and Second Quarter 2007)
                         Supplier                                                                           Supplier
  Timeframe           Acquisition              Medicare                                                   Acquisition                        Medicare
                         Cost for       Reimbursement                               Albuterol                Cost for                 Reimbursement                  Levalbuterol
                        Albuterol          for Albuterol                           Difference            Levalbuterol                 for Levalbuterol                 Difference

 4Q 2004                    $19.10                        $87.75                        $68.65                   $164.25                              $87.75              -$76.50


 1Q 2005                    $14.01                        $14.63                          $0.62                  $171.00                            $287.55              $116.55


 1Q 2006                    $17.41                        $13.50                         -$3.91                  $207.00                            $301.05               $94.05


 2Q 2007                    $11.25                        $18.23                          $6.98                  $211.05                            $345.38              $134.33

Note: All figures are average monthly amounts in each quarter for 225 mg of albuterol and 112.5 mg of levalbuterol.
Refer to Appendix B for the difference between reimbursement and cost for all quarters between October 1, 2004, and December 31, 2007.
Source: Medicare payment amounts from CMS’s Web site; OIG analysis of supplier acquisition data.


                                      Coinciding with the payment and coding changes, a number of
                                      beneficiaries began receiving levalbuterol in place of albuterol.
                                      Twenty-five percent of beneficiaries who were on albuterol in 2004 were
                                      changed to levalbuterol between January 1, 2005, and June 30, 2007.
                                      In our sample, almost one-third of these changes occurred in the initial
                                      two quarters after the payment and coding changes.

                                      Prescription changes in the opposite direction, from levalbuterol to
                                      albuterol, rarely happened during this period. Three percent of
                                      beneficiaries were changed from levalbuterol to albuterol between
                                      January 1, 2005, and June 30, 2007. In our sample of beneficiaries,
                                      more than half (five of nine) of these changes occurred in May or June of



           OEI-03-07-00440            B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B            14
       F   I N D I N G                   S


                                       2007, i.e., after the payment and coding changes were announced but
                                       before they took effect.
                                       From July through December 2007, Medicare reimbursement again favored
                                       albuterol; two-thirds of the beneficiaries in our sample who had been using
                                       levalbuterol were changed to albuterol
                                       As of July 1, 2007, CMS recombined albuterol and levalbuterol into a
                                       single HCPCS code and calculated the payment amount based on the
                                       volume-weighted ASP for both drugs. As a result, Medicare
                                       reimbursement again began to favor albuterol.

                                       Under the new payment and coding method, the Medicare payment
                                       amount for a typical monthly supply of albuterol increased from $18 in
                                       the second quarter of 2007 to $118 in the third quarter. The payment
                                       amount for levalbuterol decreased from $345 to $118. We estimate that
                                       suppliers’ acquisition cost for a monthly supply of albuterol averaged
                                       just $12, compared to $230 for levalbuterol (see Table 4). In other
                                       words, suppliers were reimbursed almost 10 times their cost for
                                       albuterol, but roughly half their cost for levalbuterol. In fact, for
                                       albuterol, the difference between Medicare reimbursement and
                                       acquisition cost was greater in the third quarter of 2007 than in the
                                       fourth quarter of 2004 ($106 compared to $69), i.e., before the
                                       MMA-mandated change to ASP took effect.
Table 4: Average Reimbursement and Cost Difference for a Monthly Supply of Albuterol and
Levalbuterol (Second to Fourth Quarter 2007)
                           Supplier                                                                             Supplier
  Timeframe             Acquisition                  Medicare                                                 Acquisition                     Medicare
                           Cost for           Reimbursement                              Albuterol               Cost for              Reimbursement                  Levalbuterol
                          Albuterol              for Albuterol                          Difference           Levalbuterol              for Levalbuterol                 Difference

 2Q 2007                      $11.25                            $18.23                       $6.98                   $211.05                         $345.38              $134.33


 3Q 2007                      $12.38                         $118.13                      $105.75                    $229.50                         $118.13              -$111.37


 4Q 2007                       $9.45                            $94.28                     $84.83                    $234.00                           $94.28             -$139.72

Note: All figures are average monthly amounts in each quarter for 225 mg of albuterol and 112.5 mg of levalbuterol.
Refer to Appendix B for the differences in reimbursement and cost for all quarters between October 1, 2004, and December 31, 2007.
Source: Medicare payment amounts from CMS’s Web site; OIG analysis of supplier acquisition data.


                                       Suppliers reported that two-thirds of beneficiaries in our sample who
                                       received levalbuterol as of June 2007 were changed to albuterol after
                                       the July 2007 payment and coding change. 36 Almost all (95 percent) of

                                          36 Because only the 63 beneficiaries who were on levalbuterol as of June 2007 were
                                       included in this analysis, we are unable to reliably project this figure.



           OEI-03-07-00440             B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B           15
F   I N D I N G                 S


                              these changes occurred in the initial quarter after the change became
                              effective, with more than half (54 percent) occurring in July. As
                              previously mentioned, an additional five beneficiaries in our sample
                              who were receiving levalbuterol moved to albuterol in May or June
                              2007—after the payment and coding changes were announced but
                              before they took effect. By December 31, 2007, 90 percent of
                              beneficiaries were receiving albuterol and 10 percent were receiving
                              levalbuterol.
      Figure 1: Percentage of Beneficiaries on Albuterol and Levalbuterol (2003–2007)

         100%


          80%


          60%
                       Reimbursement favored                                               Reimbursement favored                                    Reimbursement
                             albuterol                                                          levalbuterol                                            favored
          40%                                                                                                                                          albuterol


          20%


            0%
                    2Q03         4Q03              2Q04              4Q04           2Q05          4Q05            2Q06            4Q06            2Q07       4Q07

                                                                                       Quarter

                                                                                 Albuterol          Levalbuterol

       Source: OIG analysis of supplier surveys, 2008.

                              The April 1, 2008, payment and coding change led to a substantial
                              decrease in Medicare payments for both drugs compared to the first
                              quarter of 2008; as a result, albuterol was reimbursed at close to cost
                              and levalbuterol reimbursement remained substantially below cost
                              As of April 1, 2008, CMS had implemented provisions of the
                              Extension Act by reestablishing separate HCPCS codes and payment
                              amounts for albuterol and levalbuterol. As a result, Medicare’s
                              payment amount for albuterol became much more reflective of the
                              acquisition cost. We estimate that in the second quarter of 2008, a
                              month’s supply of albuterol cost $9 and Medicare reimbursed $10.
                              However, for levalbuterol, the average acquisition cost for a month’s
                              supply was $205, but Medicare reimbursement was $63 (69 percent
                              below cost).

                              This change significantly decreased total Medicare payments for
                              albuterol and levalbuterol. In the first quarter of 2008, when the



    OEI-03-07-00440           B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B          16
F    I N D I N G        S


                      payment code and amount were still combined, Medicare paid
                      $75 million for both drugs. 37 However, because of the decrease in
                      each drug’s payment amount on April 1, 2008, Medicare paid an
                      average of only $7 million per quarter for these two drugs in the last
                      three quarters of 2008. In total, Medicare paid $20 million for both
                      drugs during this time ($9 million for albuterol and $11 for
                      levalbuterol). 38

    Despite the move to ASP, average per-beneficiary              In the first half of 2003
      spending on albuterol and levalbuterol actually             (when payment was based
                    increased above pre-MMA levels                on AWP), Medicare spent
                                                                  an average of $506 on
                      albuterol and levalbuterol for each beneficiary. Because almost all
                      beneficiaries (97 percent) were receiving albuterol rather than
                      levalbuterol, the former accounted for the vast majority of this
                      spending. The change to an ASP-based reimbursement system in
                      January 2005 lowered the Medicare payment amount for albuterol by
                      83 percent. However, because utilization began slowly shifting to
                      levalbuterol, per-beneficiary spending did not decline proportionally.
                      As the number of beneficiaries shifting to levalbuterol increased, so did
                      the average spending per beneficiary. Between January 1 and
                      June 30, 2007, when more than a quarter of beneficiaries were receiving
                      levalbuterol, the average per-beneficiary spending was actually higher
                      than pre-MMA levels. During these 6 months, Medicare paid an
                      average of $600 per beneficiary for both albuterol and levalbuterol, or
                      $94 more per beneficiary than in the first half of 2003. Figure 2, on
                      page 18, shows how average per-beneficiary spending for the two drugs
                      changed between 2003 and the first half of 2007, including how
                      levalbuterol began to account for a much larger share of total payments.
                      Although the majority of beneficiaries remained on albuterol, the
                      quarter who had been changed to levalbuterol contributed to a total
                      increase in spending on both drugs. The 29 percent of all beneficiaries
                      on levalbuterol by June 2007 represented 90 percent of total spending




                        37 Because the payment codes and payment amounts for albuterol and levalbuterol were
                      combined in the first quarter of 2008, we cannot determine payments for either drug.
                          38 Medicare BESS data (90 percent of claims reported). Accessed on February 20, 2009.




    OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   17
F   I N D I N G         S


                      for both drugs in the first half of 2007. Medicare paid an average of $88
                      per beneficiary for those who were on albuterol in the first half of 2007,
                      but $1,776 per beneficiary on levalbuterol.
                              Figure 2: Average Amount Medicare Paid per Beneficiary for
                              Albuterol and Levalbuterol
                                   $700



                                   $600



                                   $500



                                   $400



                                   $300



                                   $200



                                   $100



                                      $0
                                                First half 2003          First half 2004        First half 2005        First half 2006        First half 2007

                                                                                            Albuterol        Levalbuterol
                              Note: Because levalbuterol and albuterol had combined HCPCS codes in the second half of 2007, we
                              analyzed spending for the first half of 2007 and the first half of the prior years to remain consistent.
                              Source: OIG analysis of National Claims History file, 2008.


    Physicians in our sample typically cited clinical                                                           Physicians who responded to
           reasons for changing beneficiaries from                                                              our data request indicated
     albuterol to levalbuterol, but financial reasons                                                           that changes in beneficiary
                                                                                                                prescriptions for albuterol and
             for changing in the opposite direction
                                                                                                                levalbuterol occurred for both
                      clinical and financial reasons. 39
                      Changes occurring between January 1, 2005, and June 30, 2007. We
                      received physician responses for 36 of the 69 beneficiaries in our sample
                      who were changed from albuterol to levalbuterol between January 1,
                      2005, and June 30, 2007 (i.e., when levalbuterol became the more
                      favorable drug from a reimbursement perspective). For 23 of the 36
                      beneficiaries (64 percent), physicians reported that the changes
                      occurred because of clinical reasons (e.g., albuterol has side effects,


                        39 Given the small sample size and low response rate from physicians, we cannot
                      accurately project these results with confidence.



    OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND     L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B            18
F   I N D I N G         S


                      levalbuterol is a more efficacious drug). These physicians had
                      previously prescribed albuterol to these beneficiaries for an average of
                      2.7 years prior to the change. 40
                      Physicians for just three beneficiaries in our sample (8 percent) cited
                      financial reasons for the change to levalbuterol during this same period.
                      For example, one physician reported changing a beneficiary after the
                      supplier mentioned the Medicare payment guidelines for the two drugs.
                      For an additional three beneficiaries (8 percent), physicians reported
                      that the changes occurred because the supplier actually requested
                      levalbuterol to be prescribed in place of albuterol. In the remaining
                      cases, reasons given for the changes include (1) other physicians
                      changed the beneficiaries’ prescriptions, 41 and (2) the beneficiaries
                      requested levalbuterol. In some cases, the physicians’ offices had no
                      documentation of the reasons for the changes.
                      Changes occurring between July 1 and December 31, 2007. We received
                      physician responses for only 12 of the 41 beneficiaries in our sample
                      who were changed from levalbuterol to albuterol between July 1 and
                      December 31, 2007. For 7 of 12 the beneficiaries (58 percent),
                      physicians reported that the prescriptions were changed because of
                      financial concerns. For example, one physician reported that he
                      changed a beneficiary’s prescription because that patient’s “insurance
                      didn’t cover levalbuterol.” Physicians also reported that changes to
                      Medicare reimbursement prompted the prescription changes. Physician
                      responses for four of these seven beneficiaries indicated that they were
                      originally changed from albuterol to levalbuterol because of albuterol’s
                      side effects.

                      During this same time, only one beneficiary was changed from
                      levalbuterol to albuterol because of clinical reasons and an additional
                      two because the beneficiaries requested albuterol.




                          40 The average length of time on albuterol may be longer, but we did not request
                      prescription history information prior to January 1, 2003.
                          41 In these cases, the physician reported that the beneficiary was changed while being
                      treated at a hospital by a different doctor. These claims would be covered under Medicare
                      Part A and would not appear in the claim files we used to select the beneficiaries in our
                      sample.



    OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   19
F   I N D I N G         S


                      In a small number of cases, physicians were unaware that beneficiaries
                      had been changed to a different drug
                      Among the 50 beneficiaries with supplier-reported albuterol or
                      levalbuterol changes for whom we also received physician responses, the
                      suppliers’ dispensing history did not always match what the physicians
                      reported prescribing. In particular, physicians for 19 beneficiaries in
                      our sample reported no knowledge of or consent to such changes. 42
                      In most of these cases (12 of 19 beneficiaries), the physician never
                      reported any prescription changes from 2003 through 2007 while the
                      supplier reported two changes between albuterol and levalbuterol that
                      coincided with the Medicare payment and coding changes. For example,
                      one physician reported that only albuterol was prescribed for a
                      particular beneficiary from January 1, 2003, until December 31, 2007.
                      The supplier, however, reported that the beneficiary was changed from
                      albuterol to levalbuterol in March 2006 and then changed back to
                      albuterol in September 2007 (after the HCPCS coding change).

                      The remaining seven beneficiaries had one supplier-reported change
                      that did not match their physicians’ prescription histories (all but one of
                      these from levalbuterol to albuterol following the coding change on
                      July 1, 2007).




                          42 If requested, we will provide information about these suppliers to CMS and OI.




    OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   20
Δ   C O N C L U S I O N



                  Albuterol and levalbuterol are used to treat the same symptoms.
                  Although some clinical studies suggest that levalbuterol has greater
                  efficacy than albuterol, other trials have failed to detect any advantage
                  to the patient. It is beyond the scope of our study to address such
                  clinical issues. However, our findings illustrate that payment and
                  coding issues, and not just clinical concerns, may affect which of the two
                  drugs is prescribed and provided to Medicare beneficiaries.

                  Prior to 2005, almost all of the beneficiaries in our review were
                  receiving albuterol rather than levalbuterol. Between January 2005
                  and June 2007, when Medicare reimbursement shifted to favor the
                  more expensive levalbuterol, one-quarter of beneficiaries were changed
                  from albuterol to the costlier product. Although a number of physicians
                  cited clinical reasons for changing prescriptions, reimbursement
                  considerations may have also played a role—especially given that some
                  changes appear to have been completed by suppliers without the
                  physicians’ knowledge and that the majority of beneficiaries
                  (75 percent) remained on albuterol.

                  Effective July 1, 2007, payment rates were again significantly changed
                  when CMS recombined the HCPCS codes for albuterol and levalbuterol
                  and began calculating the Medicare payment amount as a
                  volume-weighted average of both drugs. Because most suppliers could
                  not acquire levalbuterol at a price below the reimbursement amount,
                  many may have lost money by providing the drug. At that time, many
                  beneficiaries were changed back to albuterol, even though in some cases
                  (according to physicians), albuterol had initially caused side effects. At
                  this same time, however, the payment situation not only created a
                  disincentive for levalbuterol, but also caused albuterol to be reimbursed
                  at more than 10 times its cost. Such a wide gulf between cost and
                  reimbursement was exactly what the ASP-based methodology was
                  created to avoid. For example, such large financial incentives for
                  supplying albuterol may have influenced a small number of suppliers in
                  our sample to change beneficiaries to a new drug without the
                  physicians’ consent.
                  As of April 1, 2008, CMS implemented a provision of the Extension Act
                  that once again lowered albuterol reimbursement so that payment more
                  accurately reflected acquisition cost. However, the same provision
                  prevented CMS from addressing any underpayment for levalbuterol.



OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   21
C O   N C L        U S I O              N


                     Although our findings were limited to a small and specific subset of
                     beneficiaries, there may have been similar utilization shifts between
                     albuterol and levalbuterol among Medicare beneficiaries outside our
                     sample. Because the Medicare payment amounts and acquisition costs
                     presented in this report were based on national cost and reimbursement
                     data, all suppliers—not just the ones included in our sample—would
                     likely have been subject to the same incentives to dispense one drug
                     instead of the other. Medicare’s total spending for the two drugs
                     reflects this fact, as the program paid almost as much for albuterol and
                     levalbuterol combined in 2007 as it did in 2004, despite the substantial
                     changes to the payment amount under the ASP methodology. Given
                     that the number of Medicare beneficiaries with inhalation drug claims
                     did not increase between 2004 and 2007, this could have occurred only if
                     a large number of beneficiaries, and not just the limited subset on which
                     our analysis was based, were shifted to the drug with the most favorable
                     reimbursement.

                     In some cases, this could not only have a significant impact on total
                     Medicare spending but also limit beneficiary access to a potentially
                     more effective product. When Congress and CMS make reimbursement
                     and coding decisions, it is important they take into consideration that
                     these new policies may affect what drug a beneficiary is prescribed. In
                     some cases, this may limit access to a potentially more effective product;
                     in others, utilization could be driven toward a more expensive product
                     that offers no clinical advantage. In future studies, OIG will continue to
                     monitor the utilization of and payment for these and other drugs, with
                     the goal of identifying inappropriate Medicare payments.


                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     In its comments on the draft report, CMS stated that the agency is
                     aware of the impact that changes in payment methodologies can have
                     on access to prescription drugs. However, CMS noted that in the case of
                     albuterol and levalbuterol, changes to coding and pricing were not
                     discretionary but instead were made to comply with legislative
                     mandates. CMS stated that the agency has monitored and will continue
                     to monitor spending and utilization for both drugs to help ensure price
                     stability and access while fulfilling legal mandates.

                     In addition, CMS provided several technical comments to our draft
                     report. These technical comments included two items that CMS

 OEI-03-07-00440     B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   22
C O   N C L        U S I O              N


                     believes OIG should investigate further. These items are: (1) cases in
                     which physicians were reportedly unaware of the medication changes;
                     and (2) the clinical rationales for changing medications, including
                     whether reports of clinical complications truly reflect actual
                     complications.

                     OIG will review cases in which prescription changes occurred without
                     the physicians’ knowledge to determine whether further investigation is
                     warranted. However, in regard to the second item, the clinical
                     rationales we obtained from physicians provide sufficient justifications
                     for changes to albuterol and levalbuterol prescriptions, and therefore no
                     further investigation is necessary. In addition, as CMS pointed out,
                     while it is important to know the rationales for medication changes, the
                     agency (as well as OIG) is limited in its ability to mandate and regulate
                     a physician’s decision to prescribe or not to prescribe a drug.

                     We did not make any changes to the report based on CMS’s comments.
                     For the full text of CMS’s comments, see Appendix C.




 OEI-03-07-00440     B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   23
  C O        N C L          U S I O                  N
Δ            A P P E N D I X                                          ~             A



Table A-1: Confidence Intervals for Percentages

 Statistic                                                                              Sample                     Percentage                     95% Confidence Interval
                                                                                           Size

 Percentage of beneficiaries who were on albuterol in the
                                                                                               281                        96.8%                                  94.0% to 98.5%*
 fourth quarter of 2004 (according to suppliers)


 Percentage of beneficiaries who were on levalbuterol in the
                                                                                               281                          3.2%                                   1.5% to 6.0%*
 fourth quarter of 2004 (according to suppliers)

 Percentage of beneficiaries on albuterol in 2004 who were
                                                                                               272                        25.0%                                  19.8% to 30.2%
 changed to levalbuterol between January 1, 2005, and
 June 30, 2007 (according to suppliers)

 Percentage of beneficiaries on levalbuterol who were
                                                                                               281                          3.2%                                   1.5% to 6.0%*
 changed to albuterol between January 1, 2005, and
 June 30, 2007 (according to suppliers)

 Percentage of beneficiaries on albuterol by
                                                                                          280**                           89.6%                                  85.5% to 93.0%*
 December 31, 2007 (according to suppliers)

 Percentage of beneficiaries on levalbuterol by
                                                                                          280**                           10.4%                                   7.1% to 14.5%*
 December 31, 2007 (according to suppliers)

 Percentage of beneficiaries on levalbuterol by
                                                                                          279**                           29.4%                                  24.0% to 34.8%
 June 30, 2007 (according to suppliers)
* This confidence interval was calculated with an exact method based on binomial distribution.
** The sample size is not 281 because the beneficiary’s supplier reported that it was missing dispensing records.
Source: Office of Inspector General analysis of supplier surveys, 2008.




      OEI-03-07-00440             B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B            24
Δ   A P P E N D I X                                         ~             B



         Table B-1: Average Monthly Difference Between Reimbursement and
         Cost for Albuterol and Levalbuterol

                                                                Monthly Difference for                   Monthly Difference for
          Quarter and Year
                                                                             Albuterol                            Levalbuterol


          Fourth quarter 2004                                                         $68.65                                      -$76.50

          First quarter 2005                                                           $0.62                                     $116.55

          Second quarter 2005                                                          $6.67                                     $136.58

          Third quarter 2005                                                           $2.11                                     $112.28

          Fourth quarter 2005                                                         -$1.10                                     $107.33

          First quarter 2006                                                          -$3.91                                       $94.05

          Second quarter 2006                                                          $3.90                                     $105.53

          Third quarter 2006                                                           $4.65                                     $129.15

          Fourth quarter 2006                                                         -$3.92                                       $95.18

          First quarter 2007                                                           $0.23                                     $102.38

          Second quarter 2007                                                          $6.98                                     $134.33

          Third quarter 2007                                                         $105.75                                    -$111.37

          Fourth quarter 2007                                                         $84.83                                    -$139.72
        Source: Medicare payment amounts from the Centers for Medicare & Medicaid Services’ Web site; Office
        of Inspector General analysis of supplier acquisition data.




OEI-03-07-00440         B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   25
..          A P PEN 0                                 x                   c

Agency Comments



                                                                                                               Caiilers for M13diçare &. Medicaid Services
  (~~'È
   Y1:;,¡,~ DEPARTMENT OF HEALTf & IòUMAN SERVICES
     ~~"da(l l;...
                                                                                                               ?OO Independence Aven4e SW
                                                                                                               Washington, DC 20201




                     DATE:                 JUl 0 2 2009


                     TO:              Daniel R. Levinson
                                     .Inspector General

                     FROM:           i;nariene l'rizzera       /S/
                                     Açting Administrator

                     SUBJECT:        Offce ofInspector General's Draft Report: "Beneficiiuy Utili;zation of Albuterol
                                     and Levalbuterol Under Medicare Par B" (OEH3.07.00440) .

                     Than you for the opportunity to review and comment on the OffceofInspector General's
                     (OIG)  draft report entitled, "Beneficiary Utilization of Albuterol and Levalbuterol Under
                     Medicare Par B." We      appreciate the OIG's continuing efforts to el!amine payments made under
                     the average sales price methodology. The OIG report p'resents findings f(om an analysis of
                     coding and payment changes made to these two inhalation drugs.

                     The OIG reviewed two specific Medicate Part B drugs, albuterol and levalbutel'l, both
                     bronchodilators used to treat asthma and .chronic obstructive pulmonary diseases (COPD).
                     Studies have shown a significant incidence of COPO in the adult population. .


                     The OIG concluded that a correlation el!ists between coding          and pricing changes and shifts in
                     prescribing patterns and utilization bétween the two drugs. Specifically, the OIG found                  that at
                     times, prescribing patterns and utilization ofthese drugs                      financially
                                                                                     shifted toward the more

                     profitable drug. -The OIG also found that somebeUt:flciaries were switched between the drugs'
                     more than once, often correlating with Medicare coding and payment limit chauges.

                     These drugs have been affected bya number of coding and pricing changes since     2003. It is
                     important to recognize that these changes were not discretionary; instead the changes were made
                     in order to comply with legislative mandates. As the OIGnoted, in :2003 and 2007, Congress
                     amended the Social Security Act to change the methodology used to pay claims for certain
                     Medicare Part B drugs and specifcally certain drugs adrni.nistered through durable medical
                     equipment.' The Centers fpr Medicare &- Medicaid Services (CMS)is aware of the impact that
                     changes in payment i;ethodologies canhave on access to prescription drugs. We have and wm
                     continue to closely monitOr spendingandutil;zationori these drugs to help balance our need to
                     assure stability in prices and access to drugs while discha(girig our legal mandates.




   o E 1-0 3. 07 .00440                    BENEFICIARY UTILIZATION OF ALBUTEROL AND LEVALBUTEROL UNDER MEDICARE PART B                                       26
A   P   P E N D       I X              ~            C




    OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   27
Δ   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director of the Medicare and
                  Medicaid Prescription Drug Unit.

                  Stephanie Yeager served as the lead analyst for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Kevin McAloon. Central office staff who contributed include
                  Rita Wurm, Kevin Manley, and Kevin Farber.




OEI-03-07-00440   B E N E F I C I A RY U T I L I Z AT I O N   OF   ALBUTEROL   AND   L E VA L B U T E R O L U N D E R M E D I C A R E PA R T B   28
